              Audit Report



  Representative Payee Selections
Pending in the Representative Payee
              System




      A-09-12-11252 | February 2014
MEMORANDUM


Date:      February 27, 2014                                                  Refer To:

To:        The Commissioner
From:      Inspector General
Subject:   Representative Payee Selections Pending in the Representative Payee System (A-09-12-11252)

           The attached final report presents the results of our audit. Our objective was to determine
           whether the Social Security Administration properly resolved representative payee selections
           that were pending in its Representative Payee System.

           If you wish to discuss the final report, please call me or have your staff contact
           Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                           Patrick P. O’Carroll, Jr.

           Attachment
Representative Payee Selections Pending in the Representative
Payee System
A-09-12-11252
February 2014                                                             Office of Audit Report Summary

Objective                                 Our Findings

To determine whether the Social           SSA did not always resolve representative payee selections that
Security Administration (SSA)             were pending in its RPS. Based on our random sample, we
properly resolved representative payee    estimate that SSA:
selections that were pending in its
Representative Payee System (RPS).        •   Did not resolve the representative payee selections for
                                              29,092 beneficiaries. Of these, SSA paid $132.5 million in
Background                                    benefits to someone other than the selected representative
                                              payees for 8,951 beneficiaries.
Some individuals cannot manage or
direct the management of their            •   Improperly changed the representative payee selections to a
finances because of their youth or            non-selected status for 20,141 beneficiaries. Of these, SSA paid
mental and/or physical impairments.           $265 million in benefits to someone other than the selected
Congress granted SSA the authority            representative payees for 11,749 beneficiaries.
to appoint representative payees
to receive and manage these               •   Incorrectly recorded beneficiary information in RPS for
beneficiaries’ benefit payments.              5,595 beneficiaries.

SSA employees use RPS to take             •   Did not timely resolve the representative payee selections for
and process representative payee              17,343 beneficiaries.
applications. When SSA selects a
representative payee and updates the      Our Recommendations
Master Beneficiary and Supplemental
Security Records with this information,   We recommend that SSA:
it is compared with information in
RPS. If the payee selection could not     1. Take appropriate action to resolve the representative payee
be processed or the information does         selections pending in RPS for the 98 beneficiaries identified by
not match, the representative payee          our audit.
selection remains in a pending status.
                                          2. Evaluate the results of its corrective actions for the
SSA’s automated system then
                                             98 beneficiaries and determine whether it should review the
generates an alert every 30 days to
                                             remaining population of beneficiaries who have representative
remind field office employees to
                                             payee selections pending in RPS.
take manual action to resolve the
discrepancy.                              3. Determine whether it should modify the RPS clean-up operation
                                             to ensure it does not improperly change representative payee
SSA conducts an annual clean-up
                                             selections to a non-selected status.
operation for representative payee
selections that are pending in RPS.       4. Determine whether it should develop additional guidance to
The cleanup is designed to move              ensure representative payee selections are properly and timely
pending representative payee                 resolved.
selections to an active or non-active
status, when appropriate.                 SSA agreed with our recommendations.
TABLE OF CONTENTS
Objective ..........................................................................................................................................1
Background ......................................................................................................................................1
Results of Review ............................................................................................................................2
     Representative Payee Selections Not Resolved .........................................................................3
     Representative Payee Selections Improperly Changed to a Non-Selected Status .....................5
     Incorrect Beneficiary Information Recorded in RPS .................................................................6
     Representative Payee Selections Not Timely Resolved ............................................................6
Conclusions ......................................................................................................................................7
Recommendations ............................................................................................................................7
Agency Comments ...........................................................................................................................7
Appendix A – Scope and Methodology ..................................................................................... A-1
Appendix B – Sampling Methodology and Results ................................................................... B-1
Appendix C – Agency Comments .............................................................................................. C-1
Appendix D – Major Contributors.............................................................................................. D-1




Representative Payee Selections Pending in the Representative Payee System (A-09-12-11252)
ABBREVIATIONS
BIC                  Beneficiary Identification Code

MBR                  Master Beneficiary Record

MRPF                 Master Representative Payee File

OASDI                Old-Age, Survivors and Disability Insurance

OIG                  Office of the Inspector General

POMS                 Program Operations Manual System

RPS                  Representative Payee System

SSA                  Social Security Administration

SSI                  Supplemental Security Income

SSR                  Supplementary Security Record

U.S.C.               United States Code




Representative Payee Selections Pending in the Representative Payee System (A-09-12-11252)
OBJECTIVE
Our objective was to determine whether the Social Security Administration (SSA) properly
resolved representative payee selections that were pending in its Representative Payee System
(RPS).

BACKGROUND
SSA administers the Old-Age, Survivors and Disability Insurance (OASDI) program under
Title II of the Social Security Act. 1 This program provides monthly benefits to retired and
disabled workers, including their dependents and survivors. SSA also administers the
Supplemental Security Income (SSI) program under Title XVI of the Social Security Act. 2
This program provides payments to financially needy individuals who are aged, blind, and/or
disabled.

Some individuals cannot manage or direct the management of their finances because of their
youth or mental and/or physical impairments. Congress granted SSA the authority to appoint
representative payees to receive and manage these beneficiaries’ benefit payments. A
representative payee may be an individual or organization. SSA selects representative payees
for Title II beneficiaries 3 and Title XVI recipients when representative payments would serve
the individual’s interests. 4

SSA employees use RPS to take and process representative payee applications. 5 When SSA
selects a representative payee and updates the Master Beneficiary (MBR) and Supplemental
Security Records (SSR) with this information, it is compared with information in RPS. If the
payee selection could not be processed or the information does not match, the representative
payee selection remains in a pending status. 6 RPS generates an alert to remind field office
employees to take manual action to resolve the discrepancy. RPS generates these alerts every
30 days until the discrepancy is resolved.

SSA conducts an annual clean-up operation for representative payee selections that are pending
in RPS. The cleanup is designed to move pending representative payee selections to an active or
non-active status, when appropriate. 7



1
    The Social Security Act § 201 et seq., 42 U.S.C. § 401 et seq.
2
    The Social Security Act §§ 1602 and 1611, 42 U.S.C. §§ 1381a and 1382.
3
    We use the term “beneficiary” generically in this report to refer to both OASDI beneficiaries and SSI recipients.
4
    The Social Security Act, §§ 205(j)(1)(A) and 1631(a)(2)(A)(ii), 42 U.S.C. §§ 405(j)(1)(A) and 1383(a)(2)(A)(ii).
5
    SSA, POMS, GN 00502.107 (October 4, 2010).
6
    Referred to as “Stuck 98” cases.
7
    SSA, Instruction MSS13-035 RPS (May 16, 2013).



Representative Payee Selections Pending in the Representative Payee System (A-09-12-11252)                              1
For our review, we identified 111,893 Title II and XVI beneficiaries who had a representative
payee selection pending in RPS as of December 2011. From this population, we selected a
random sample of 200 beneficiaries for review (see Appendix A).

RESULTS OF REVIEW
SSA did not always resolve representative payee selections that were pending in its RPS. Based
on our random sample, we estimate that SSA

•   did not resolve the representative payee selections for 29,092 beneficiaries. Of these, SSA
    paid $132.5 million in benefits paid to someone other than the selected representative payees
    for 8,951 beneficiaries;

•   improperly changed the representative payee selections to a non-selected status 8 for
    20,141 beneficiaries. Of these, SSA paid $265 million in benefits to someone other than
    the selected representative payees for 11,749 beneficiaries;

•   incorrectly recorded beneficiary information in RPS for 5,595 beneficiaries; and

•   did not timely resolve the representative payee selections for 17,343 beneficiaries. 9

This occurred because SSA employees recorded incorrect beneficiary or representative payee
information in RPS and did not follow up to ensure the selection was completed. In addition, we
found the RPS clean-up operation did not always (1) resolve the representative payee selections
or (2) correct the beneficiary or representative payee information in RPS.

We are 90-percent confident the number of beneficiaries with

•   unresolved representative payee selections ranged from 23,437 to 35,352—with $70.1 to
    $194.9 million paid to someone other than the selected representative payees for 5,690 to
    13,308 beneficiaries;

•   representative payee selections that were improperly changed to a non-selected status ranged
    from 15,290 to 25,805—with $145.3 to $384.7 million paid to someone other than the
    selected representative payees for 7,998 to 16,519 beneficiaries;

•   incorrect beneficiary information in RPS ranged from 3,065 and 9,321; and




8
 A non-selection occurs when SSA determines that an applicant will not be the representative payee for a
beneficiary.
9
 For our review, we used a standard of 90 days to determine whether SSA had resolved the representative payee
selections timely.



Representative Payee Selections Pending in the Representative Payee System (A-09-12-11252)                      2
•     representative payee selections that were not timely resolved ranged from 12,812 to
      22,754 (see Appendix B).

For the 200 beneficiaries in our sample, SSA (1) did not resolve the representative payee
selections for 52 (26 percent), (2) improperly changed the representative payee selections to a
non-selected status for 36 (18 percent), (3) recorded incorrect beneficiary information in RPS
for 10 (5 percent), and (4) did not timely resolve the representative payee selections for
31 (15.5 percent). For the remaining 71 (35.5 percent) beneficiaries, SSA resolved the
representative payee selections in a timely manner. The following chart summarizes the
results of our review.

                     Figure 1: Representative Payee Selections Pending in RPS



                             Based on Random Sample of 200 Beneficiaries


         Not Resolved                                                              Improperly Changed
            (26%)                                                                   to a Non-Selected
                                                                                       Status (18%)


                                                                                   Incorrect Beneficiary
                                                                                    Information in RPS
                                                                                           (5%)


         Properly Resolved                                                              Not Timely
             (35.5%)                                                                 Resolved (15.5%)




Representative Payee Selections Not Resolved
RPS contains information about current and prior representative payees for beneficiaries. RPS
also updates the Master Representative Payee File (MRPF), which contains all representative
payees and the beneficiaries in their care. 10 SSA employees use RPS to enter and retrieve
information about representative payees and those applying to be representative payees. When
SSA selects a representative payee and updates the MBR and SSR with this information, it is
compared with information in RPS. If the payee selection could not be processed or the
information does not match, the representative payee selection remains in a pending status. RPS
generates an alert to remind SSA employees to take manual action to resolve the discrepancy.
RPS generates these alerts every 30 days until the discrepancy is resolved.


10
     SSA, POMS, GN 00502.120 (November 21, 2005).



Representative Payee Selections Pending in the Representative Payee System (A-09-12-11252)                 3
SSA had not resolved the representative payee selections for 52 of the 200 beneficiaries in our
sample. The representative payees for these beneficiaries were pending in RPS for an average
of 1,141 days. 11 As depicted in Figure 2, for 36 of the 52 beneficiaries, SSA paid $337,716 in
benefits to the selected representative payees. For the remaining 16 beneficiaries, SSA paid
$236,843 in benefits to someone other than the selected representative payees. Of these, SSA
paid benefits directly to 11 beneficiaries and to prior representative payees for 5 beneficiaries.
SSA had determined all these beneficiaries were incapable of managing their benefits. As a
result, these payments were at risk of improper use or misuse because they were not paid to the
representative payees whom SSA had selected to manage their benefits.

                       Figure 2: Representative Payee Selections Not Resolved



                            For 52 of the 200 Beneficiaries in Our Sample


          Benefits Paid                                                               Benefits Paid
           to Selected                                                                 Directly to
          Representative                                                             Beneficiary (11)
           Payee (36)




                                                                                    Benefits Paid to
                                                                                  Prior Representative
                                                                                        Payee (5)




This occurred because SSA employees recorded incorrect beneficiary or representative payee
information in RPS and did not follow up to ensure the selection was completed. Although
RPS generated alerts for representative payee selections with discrepant information between
RPS and the MBR or SSR, our review disclosed that SSA employees did not properly resolve
these alerts.

For example, in September 2009, SSA selected a beneficiary’s daughter as representative payee.
However, the representative payee selection remained in a pending status because the beneficiary
information in RPS did not match the beneficiary information on the SSR. As a result, SSA
continued paying the beneficiary directly. As of August 2013, SSA had paid the beneficiary
$13,486, and the selected representative payee was still in a pending status.



11
     The mean was 1,141 days. The median was 787 days.



Representative Payee Selections Pending in the Representative Payee System (A-09-12-11252)               4
Representative Payee Selections Improperly Changed to a
Non-Selected Status
SSA conducts an annual clean-up operation 12 for representative payee selections that are pending
in RPS. The cleanup is designed to move pending representative payee selections to an active or
non-active status, when appropriate. 13

The clean-up operation improperly changed the representative payee selections to a non-selected
status for 36 of the 200 beneficiaries in our sample. As depicted in Figure 3, for 15 of the
36 beneficiaries, SSA paid $194,087 in benefits to the selected representative payees. For the
remaining 21 beneficiaries, SSA paid $473,688 in benefits to someone other than the selected
representative payees. Of these, SSA paid benefits directly to 19 beneficiaries and to prior
representative payees for 2 beneficiaries. Since SSA had determined the beneficiaries were
incapable, these payments were at risk of improper use or misuse because they were not paid to
the representative payees whom SSA had selected to manage their benefits.

 Figure 3: Representative Payee Selections Improperly Changed to a Non-Selected Status



                              For 36 of the 200 Beneficiaries in Our Sample


           Benefits Paid                                                            Benefits Paid to
            Directly to                                                           Prior Representative
          Beneficiary (19)                                                              Payee (2)




                                                                                     Benefits Paid
                                                                                      to Selected
                                                                                     Representative
                                                                                      Payee (15)




12
     Referred to as “Stuck 98” clean-up maintenance runs.
13
     SSA, Instruction MSS13-035 RPS (May 16, 2013).



Representative Payee Selections Pending in the Representative Payee System (A-09-12-11252)               5
For example, in January 2011, SSA selected a beneficiary’s mother as representative payee.
However, the representative payee selection remained in a pending status because the beneficiary
information in RPS and the MBR did not match. Although SSA had determined the beneficiary
was incapable of handling her finances, it continued paying the beneficiary directly. In
May 2012, the clean-up operation improperly changed the mother’s pending representative payee
selection to a non-selected status in RPS. As of August 2013, SSA had directly paid the
beneficiary $22,513.

Incorrect Beneficiary Information Recorded in RPS
When SSA selects a representative payee for a beneficiary, it compares beneficiary information
on the MBR or SSR to beneficiary information in RPS and the MRPF for consistency and
accuracy. This information includes the representative payee’s name, beneficiary’s Social
Security number, and Beneficiary Identification Code (BIC). The BIC identifies the type of
beneficiary, such as wage earner, spouse, child, or widow(er). If this information does not agree,
the representative payee selection remains in a pending status.

SSA recorded an incorrect BIC in RPS for 10 of the 200 beneficiaries in our sample. In addition,
the RPS clean-up operation cleared the pending selection in RPS without correcting the BIC for
these beneficiaries. Although SSA paid benefits to the correct representative payee, it did not
update RPS to reflect the correct beneficiary’s BIC.

For example, in August 2009, SSA selected a beneficiary’s mother as representative payee.
However, the representative payee selection remained in a pending status because an SSA
employee recorded an incorrect BIC in RPS for the beneficiary. In September 2009, SSA
selected the representative payee and recorded the correct BIC but did not remove the pending
selection under the incorrect BIC. In May 2012, the RPS clean-up operation incorrectly cleared
the representative payee selection with the incorrect BIC. As a result, RPS had duplicate
information for the same beneficiary under two BICs.

Representative Payee Selections Not Timely Resolved
SSA had not timely resolved the representative payee selections for 31 of the 200 beneficiaries in
our sample. 14 The representative payees for these beneficiaries had been pending in RPS for an
average of 586 days. 15 In one instance, SSA had not resolved the representative payee selection
for as long as 1,504 days. Although SSA had determined the beneficiaries needed representative
payees to manage their benefit payments, it still paid the beneficiaries directly for about 1.5 years
before the representative payees began receiving payments.




14
  For our review, we used a standard of 90 days to determine whether SSA had resolved the representative payee
selections timely.
15
     The mean was 586 days. The median was 542 days.



Representative Payee Selections Pending in the Representative Payee System (A-09-12-11252)                       6
RPS generates an alert when a representative payee selection is in a pending status and continues
generating alerts every 30 days until the discrepancy is resolved. However, SSA employees
did not always resolve the alerts to clear the representative payee selections in RPS. Therefore,
SSA may need to develop additional policies and procedures to monitor representative payee
selections. We found these selections were not timely resolved and often remained pending until
SSA conducted its RPS clean-up operation. Delays in resolving the representative payee
selections pending in RPS increases the likelihood that benefits may be improperly paid to
someone other than the correct representative payee.

CONCLUSIONS
Based on our random sample, we estimate that SSA did not resolve the representative payee
selections for 29,092 beneficiaries. Of these, SSA paid about $132.5 million to someone
other than the selected representative payees for 8,951 beneficiaries. We also estimate that
SSA improperly changed the representative payee selections to a non-selected status for
20,141 beneficiaries. Of these, SSA paid about $265 million to someone other than the selected
representative payees for 11,749 beneficiaries. Finally, we estimate that SSA incorrectly
recorded beneficiary information in RPS for 5,595 beneficiaries and did not timely resolve the
representative payee selections for 17,343 beneficiaries (see Appendix B).

RECOMMENDATIONS
We recommend that SSA:

1. Take appropriate action to resolve the representative payee selections pending in RPS for the
   98 beneficiaries identified by our audit.

2. Evaluate the results of its corrective actions for the 98 beneficiaries and determine whether
   it should review the remaining population of beneficiaries who have representative payee
   selections pending in RPS.

3. Determine whether it should modify the RPS clean-up operation to ensure it does not
   improperly change representative payee selections to a non-selected status.

4. Determine whether it should develop additional guidance to ensure representative payee
   selections are properly and timely resolved.

AGENCY COMMENTS
SSA agreed with our recommendations. The Agency’s comments are included in Appendix C.




Representative Payee Selections Pending in the Representative Payee System (A-09-12-11252)         7
                                        APPENDICES




Representative Payee Selections Pending in the Representative Payee System (A-09-12-11252)
Appendix A – SCOPE AND METHODOLOGY
We obtained from the Social Security Administration’s (SSA) Master Beneficiary (MBR) and
Supplemental Security Records (SSR) and Representative Payee System (RPS), a data extract of
Title II and XVI beneficiaries who had a representative payee selection pending in RPS. Using
this information, we identified a population of 111,893 Title II and XVI beneficiaries in current
pay status as of December 2011.

To accomplish our objective, we

•   reviewed the applicable sections of the Social Security Act, United States Code, and SSA’s
    Program Operations Manual System;

•   interviewed SSA employees from the Offices of Operations and Systems;

•   reviewed a random sample of 200 beneficiaries who had representative payee selections
    pending in RPS; and

•   reviewed queries from SSA’s MBR, SSR, RPS, Online Retrieval System, Claims Folder
    Records Management System, and Treasury Check Information System.

•   determined the amount of payments made to someone other than the selected representative
    payee as of May 2013.

We determined whether the computer-processed data from the MBR and SSR were sufficiently
reliable for our intended use. We tested the data to determine their completeness and accuracy.
These tests allowed us to assess the reliability of the data and achieve our audit objective.

We conducted audit work in Richmond, California, and Baltimore, Maryland, between February
and August 2013. The entities audited were the Offices of Operations and Systems under the
Offices of the Deputy Commissioners for Operations and Systems.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective.




Representative Payee Selections Pending in the Representative Payee System (A-09-12-11252)    A-1
Appendix B – SAMPLING METHODOLOGY AND RESULTS
From the Social Security Administration’s (SSA) Master Beneficiary Record, Supplemental
Security Record, and Representative Payee System (RPS), we obtained a data extract of
111,893 Title II and XVI beneficiaries in current pay status who had a representative payee
selection pending in RPS as of December 2011. From this population, we selected a random
sample of 200 beneficiaries for review. The following tables provide the details of our sample
results and statistical projections.

                                 Table B–1: Population and Sample Size
                    Description                                               Beneficiaries
                   Population Size                                              111,893
                    Sample Size                                                     200

Representative Payee Selections Not Resolved
SSA did not resolve the representative payee selections for 52 beneficiaries. Of these, SSA
paid $337,716 to the selected representative payees for 36 beneficiaries and $236,843 to
someone other than the selected representative payees for 16 beneficiaries. Projecting our
sample results to the population of 111,893 beneficiaries, we estimate that SSA did not
resolve the representative payee selections for 29,092 beneficiaries. Of these, we estimate
that SSA paid about $188.9 million in benefits to the selected representative payees for
20,141 beneficiaries and $132.5 million to someone other than the selected representative
payees for 8,951 beneficiaries.

                     Table B–2: Representative Payee Selections Not Resolved
                   Description                                                Beneficiaries
                  Sample Results                                                     52
                  Point Estimate                                                 29,092
             Projection – Lower Limit                                            23,437
             Projection – Upper Limit                                            35,352
Note:   All statistical projections are at the 90-percent confidence level.

                    Table B–3: Benefits Paid to Selected Representative Payees
          Description                              Beneficiaries                      Payments
         Sample Results                                    36                           $337,716
         Point Estimate                               20,141                        $188,940,282
    Projection – Lower Limit                          15,290                         $85,682,937
    Projection – Upper Limit                          25,805                        $292,197,627
Note:   All statistical projections are at the 90-percent confidence level.



Representative Payee Selections Pending in the Representative Payee System (A-09-12-11252)         B-1
        Table B–4: Benefits Paid to Someone Other Than Selected Representative Payees
          Description                                Beneficiaries                      Payments
         Sample Results                                     16                            $236,843
         Point Estimate                                  8,951                        $132,505,369
    Projection – Lower Limit                             5,690                         $70,104,165
    Projection – Upper Limit                            13,308                        $194,906,573
Note:     All statistical projections are at the 90-percent confidence level.

Representative Payee Selections Improperly Changed to a
Non-Selected Status
SSA improperly changed the representative payee selections to a non-selected status for
36 beneficiaries. Of these, SSA paid $194,087 to the selected representative payees for
15 beneficiaries and $473,688 to someone other than the selected representative payees for
21 beneficiaries. Projecting our sample results to the population of 111,893 beneficiaries, we
estimate that SSA improperly changed the representative payee selections to a non-selected
status for 20,141 beneficiaries. Of these, we estimate that SSA paid about $108.6 million to the
selected representative payees for 8,392 beneficiaries and $265 million to someone other than
the selected representative payees for 11,749 beneficiaries.

Table B–5: Representative Payee Selections Improperly Changed to a Non-Selected Status
                     Description                                                Beneficiaries
                    Sample Results                                                     36
                    Point Estimate                                                 20,141
               Projection – Lower Limit                                            15,290
               Projection – Upper Limit                                            25,805
Note:     All statistical projections are at the 90-percent confidence level.

                      Table B–6: Benefits Paid to Selected Representative Payees
          Description                                Beneficiaries                      Payments
         Sample Results                                     15                            $194,087
         Point Estimate                                  8,392                        $108,584,883
    Projection – Lower Limit                             5,239                         $53,812,598
    Projection – Upper Limit                            12,655                        $163,357,169
Note:     All statistical projections are at the 90-percent confidence level.




Representative Payee Selections Pending in the Representative Payee System (A-09-12-11252)           B-2
        Table B–7: Benefits Paid to Someone Other Than Selected Representative Payees
          Description                               Beneficiaries                      Payments
         Sample Results                                    21                            $473,688
         Point Estimate                                11,749                        $265,011,857
    Projection – Lower Limit                            7,998                        $145,322,883
    Projection – Upper Limit                           16,519                        $384,700,831
Note:    All statistical projections are at the 90-percent confidence level.

Incorrect Beneficiary Identification Code Recorded in RPS
SSA recorded the incorrect beneficiary identification code (BIC) in RPS for 10 beneficiaries.
Projecting our sample results to the population of 111,893 beneficiaries, we estimate that SSA
recorded the incorrect BIC in RPS for 5,595 beneficiaries.

             Table B–8: Incorrect Beneficiary Identification Code Recorded In RPS
                    Description                                                Beneficiaries
                   Sample Results                                                     10
                   Point Estimate                                                  5,595
              Projection – Lower Limit                                             3,065
              Projection – Upper Limit                                             9,321
Note:    All statistical projections are at the 90-percent confidence level.

Representative Payee Selections Not Timely Resolved
SSA did not timely resolve the representative payee selections for 31 beneficiaries. Projecting
our sample results to the population of 111,893 beneficiaries, we estimate that SSA did not
timely resolve the representative payee selections for 17,343 beneficiaries.

                Table B–9: Representative Payee Selections Not Timely Resolved
                    Description                                                Beneficiaries
                   Sample Results                                                     31
                   Point Estimate                                                 17,343
              Projection – Lower Limit                                            12,812
              Projection – Upper Limit                                            22,754
Note:    All statistical projections are at the 90-percent confidence level.




Representative Payee Selections Pending in the Representative Payee System (A-09-12-11252)          B-3
           Appendix C – AGENCY COMMENTS




                                           SOCIAL SECURITY

 MEMORANDUM


Date:      February 6, 2014                                                               Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Katherine Thornton /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Representative Payee Selections Pending in the
           Representative Payee System” (A-09-12-11252)--INFORMATION

           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Gary S. Hatcher at (410) 965-0680.

           Attachment




           Representative Payee Selections Pending in the Representative Payee System (A-09-12-11252)         C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “REPRESENTATIVE PAYEE SELECTIONS PENDING IN THE
REPRESENTATIVE PAYEE SYSTEM” (A-09-12-11252)


Recommendation 1

Take appropriate action to resolve the representative payee selections pending in RPS for the 98
beneficiaries identified by our audit.

Response

We agree. We will complete the necessary actions on the 98 cases by the end of
fiscal year (FY) 2014.

Recommendation 2

Evaluate the results of its corrective actions for the 98 beneficiaries and determine whether it
should review the remaining population of beneficiaries who have representative payee
selections pending in RPS.

Response

We agree. By the end of calendar year (CY) 2014, we will evaluate the results of our actions on the
98 cases in recommendation 1 and determine whether additional action is required for the remaining
population.

Recommendation 3

Determine whether it should modify the RPS clean-up operation to ensure it does not improperly
change representative payee selections to a non-selected status.

Response

We agree. Prior to this review, we had identified an issue with the Representative Payee System
(RPS) clean-up operation, and we are in the process of testing our modification. We plan to
implement the modifications prior to our next RPS clean-up operation, which we estimate to take
place in the spring of 2014.




Representative Payee Selections Pending in the Representative Payee System (A-09-12-11252)         C-2
Recommendation 4

Determine whether it should develop additional guidance to ensure representative payee
selections are properly and timely resolved.

Response

We agree. Based on our analysis of any actions taken for the 98 cases referenced in
recommendation 1, we will determine by the end of CY 2014 whether additional guidance is
necessary.




Representative Payee Selections Pending in the Representative Payee System (A-09-12-11252)   C-3
Appendix D – MAJOR CONTRIBUTORS
James J. Klein, Director, San Francisco Audit Division

Jack H. Trudel, Audit Manager

Timothy E. Meinholz, Senior Auditor

Wilfred Wong, Audit Data Specialist

Charles Zaepfel, IT Specialist




Representative Payee Selections Pending in the Representative Payee System (A-09-12-11252)   D-1
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
